Audit Report



Return to the USDOJ/OIG Home Page



United States Immigration and Naturalization Service
Intergovernmental Service Agreement for Detention Facilities with the 
DeKalb County, Georgia, Sheriff's Office
GR-40-02-002
November 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Intergovernmental Service Agreement (IGA) between the United States Immigration and Naturalization Service (INS) and the DeKalb County, Georgia, Sheriff's Office (DCSO).  For the period January through December 2000 (DeKalb County's fiscal year (FY) 2000), the DCSO billed the INS $13,816,810 for 197,383 jail days at the established rate of $70.00 per day. Currently, the INS no longer is housing detainees at the DeKalb County jail due to medical care concerns.  An INS official informed us that the INS had no immediate plans to return the detainees to the DeKalb County jail, but a decision to do so could not be ruled out.

	The purpose of the audit was to determine the appropriateness of:
(a) operating costs claimed on the Jail Services Cost Statement (cost sheet), (b) the average daily inmate population (average population) identified on the cost sheet, and (c) billings to the INS.  We also determined if the jail day rate was the same as the rate identified in the IGA.  We found that the:

DCSO included $13,426,565 of operating costs in the cost sheet that were either unallowable, unallocable, or unsupported.

	DCSO understated its average total inmate population by more than 29 percent.

	DCSO over-billed the INS $5,662,918 in FY 2000.

	INS may realize annual savings of $7,826,236 if the INS returns the detainees to the DeKalb County jail and negotiates the jail day rate to our audited rate.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.